HHS/OIG, Audit - "Audit of Cost Transfers to Federal Grants at Thomas
Jefferson University During the Period July 1, 2002, Through June 30, 2004,"
(A-03-05-03300)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Cost Transfers to
Federal Grants at Thomas Jefferson University During the Period July 1, 2002,
Through June 30, 2004," (A-03-05-03300)
April 5, 2007
Complete Text of Report is available in PDF format (213 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Thomas Jefferson University (the University) cost transfers to federally funded grants were documented in accordance with Federal requirements. The University generally documented cost transfers to federally funded grants in accordance with Federal requirements. Through documentation and explanation, the University was able to justify all the transfers. We have no recommendations to report.